      United States Department of Agriculture




Office of Inspector General
Executive Order 13520,
Reducing Improper Payments,
Fiscal Year 2013 High-Dollar
Overpayments Report Review




                                       50024-0006-11
                                       August 2014
                                   Executive Order 13520, Reducing Improper Payments 
                                                     Fiscal Year 2013  
                                        High-Dollar Overpayments Report Review 

What Were OIG’s                                     Audit Report 50024-0006-11 
Objectives
Our objectives were to review
USDA’s quarterly high-dollar
overpayments reports to assess
the level of risk associated
with the applicable programs,
determine the extent of
oversight warranted, and         OIG reviewed information from USDA’s
provide the Secretary of
Agriculture with
                                 fiscal year 2013 quarterly reports on high-
recommendations, if any, for     dollar overpayments made by programs
modifying USDA’s recovery        susceptible to significant improper
and corrective action plans.
                                 payments.
What OIG Reviewed
                                 What OIG Found
We reviewed USDA’s fiscal
year 2013 quarterly high-
dollar overpayments reports,     The President issued Executive Order 13520, Reducing Improper
interviewed OCFO officials       Payments, to strengthen efforts to eliminate payment error, waste,
and officials with the           fraud, and abuse in Federal programs. As required by the Executive
component agencies               Order, the Office of Inspector General (OIG) reviewed the U.S.
administering USDA’s 16          Department of Agriculture’s (USDA) quarterly high-dollar
high-risk programs, and          overpayments reports and made recommendations, as necessary, to
evaluated supporting             agencies’ plans to recover and prevent high-dollar overpayments.
documents they provided.
                                 For fiscal year 2013, USDA reported 569 high-dollar overpayments
What OIG Recommends              totaling over $47.1 million. This represents an increase of
                                 42 percent over the number of overpayments reported the previous
The Risk Management              year. In our fourth year of reporting, we found that USDA
Agency and Natural Resources     implemented actions to adhere to the high-dollar reporting
Conservation Service need to     requirements. However, USDA quarterly reports included errors,
implement a second party         had inadvertent omissions, and were published up to 222 days after
quality review process to        the due date. This occurred because of challenges with budget
ensure that high-dollar          constraints and resource limitations that impacted reporting of high-
overpayments information is      dollar overpayments. USDA needs to take further steps to ensure it
accurately reported and traced   reports the information accurately, completely, and timely. Without
to supporting documentation.     accurate and timely reporting, the results of USDA’s actions or
Additionally, OCFO should        strategies to reduce high-dollar overpayments are not fully known.
develop a second party quality
review process in conjunction    USDA’s Office of the Chief Financial Officer (OCFO) agreed with
with the agencies to ensure      our recommendations.
overpayments identified are
included in the Department-
level high-dollar
overpayments reports.
                            United States Department of Agriculture
                                    Office of Inspector General
                                      Washington, D.C. 20250


DATE:           August 13, 2014

AUDIT
NUMBER:         50024-0006-11

TO:             Jon M. Holladay                                          Juan M. Garcia
                Deputy Chief Financial Officer                           Administrator
                Office of the Chief Financial Officer                    Farm Service Agency
                ATTN: Kathy Donaldson                                    ATTN: Philip Sharp

                Doug O’Brien                                             Audrey Rowe
                Acting Under Secretary                                   Administrator
                Rural Development                                        Food and Nutrition Service
                ATTN: John Dunsmuir                                      ATTN: Mark Porter

                Thomas Tidwell                                           Brandon Willis
                Chief                                                    Administrator
                Forest Service                                           Risk Management Agency
                ATTN: Thelma Strong                                      ATTN: Kent Lanclos

                Jason Weller
                Chief
                Natural Resources Conservation Service
                ATTN: Leon Brooks

FROM:           Gil H. Harden
                Assistant Inspector General for Audit

SUBJECT:        Executive Order 13520, Reducing Improper Payments, Fiscal Year 2013
                High-Dollar Overpayment Report Review


This report presents the results of the subject audit. Your written responses, dated July 29, 2014,
August 11, 2014, and July 31, 2014, respectively, are included in its entirety at the end of the report.
Excerpts from your response and the Office of Inspector General’s position are incorporated in the
relevant sections of the report. Based on your response, we accept management decision on
Recommendations 2 and 3. We are unable to accept management decision on Recommendation 1.
The documentation or action needed to reach management decision for that recommendation is
described under the relevant OIG Position section.
Jon Holladay, et al.                                                                               2


In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. For agencies other
than OCFO, please follow your internal agency procedures in forwarding final action
correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available information and
will be posted in its entirety to our website (http://www.usda.gov/oig) in the near future.
Table of Contents
Background & Objectives .............................................................................................................................. 1
Section 1: Compliance with High-Dollar Overpayments Reporting Requirements ...................................... 3
Scope & Methodology .................................................................................................................................. 9
Exhibit A: USDA’s 16 Programs Susceptible to Significant Improper Payments ........................................ 11
Exhibit B: Summary of USDA’s Reported Fiscal Year 2013 High Dollar Overpayments ............................. 12
Exhibit C: Statistical Plan Sampling Methodology for Audit Number 50024-0006-11 Executive Order
13520, Reducing Improper Payments, Fiscal Year 2013 High-Dollar Overpayments Report Review ....... 13
Exhibit C (continued): Statistical Plan Sampling Methodology for Audit Number 50024-0006-11
Executive Order 13520, Reducing Improper Payments, Fiscal Year 2013 High-Dollar Overpayments
Report Review ............................................................................................................................................. 14
Exhibit D: Agency’s Response ..................................................................................................................... 15
Background & Objectives  
Background

Executive Order 13520, “Reducing Improper Payments” (Executive Order), signed on
November 20, 2009, assists Federal agencies in reducing and preventing improper payments
through increased transparency and improved agency accountability.1 The Executive Order
mandates that Federal agencies submit quarterly reports on any high-dollar improper
overpayments identified in high-risk programs to their respective Office of Inspector General
(OIG) and the Council of the Inspectors General on Integrity and Efficiency, and make this
information available to the public.2 Following the review of each report, the agency OIG shall
assess the level of risk associated with the applicable program, determine the extent of oversight
warranted, and provide the agency head with recommendations, if any, for modifying the
agency’s plans.

OMB implementing guidance for the Executive Order defines a reportable high-dollar
overpayment as any overpayment that is in excess of 50 percent of the correct amount of the
intended payment if:

    ·   an agency paid an individual more than $5,000 in total as a single payment or in
        cumulative payments for the quarter; or
    ·   an agency paid an entity more than $25,000 in total as a single payment or in cumulative
        payments for the quarter.3

As of fiscal year 2013, the Department of Agriculture (USDA) had 16 high-risk programs
subject to the Executive Order’s high-dollar overpayments reporting requirements. These 16
programs are administered by seven component agencies, including the Farm Service Agency
(FSA), Commodity Credit Corporation (CCC), Food and Nutrition Service (FNS), Forest Service
(FS), Natural Resources Conservation Service (NRCS), Risk Management Agency (RMA), and
Rural Development.4 USDA reported 569 high-dollar overpayments totaling over $47.1 million
in fiscal year 2013. This represents an increase of 42 percent over the number of overpayments
reported the previous year.

The Secretary of Agriculture has delegated responsibility for coordinating and submitting
USDA’s high-dollar overpayments report to the Office of the Chief Financial Officer (OCFO).
To assist OCFO in meeting reporting requirements, the seven component agencies administering
USDA’s high-risk programs must submit high-dollar overpayments data, in accordance with

1
  74 Federal Register 62201, Executive Order 13520, Reducing Improper Payments (November 20, 2009).
2
  A high-risk program is any program susceptible to significant improper payments based on the criteria outlined in
Office of Management and Budget (OMB) Memo M-11-16, Issuance of Revised Parts I and II to Appendix C of
OMB Circular A-123 (April 14, 2011).
3
  OMB Circular A-123, Parts I and II, Appendix C (April 14, 2011).
4
  CCC has no actual employees; however, it carries out its programs through the personnel and facilities of FSA and
several other agencies. FSA implements CCC-funded programs for income support, disaster assistance,
conservation, and international food procurement. We are recognizing FSA and CCC as two of the seven
component agencies throughout the report.


                                                                         AUDIT REPORT 50024-0006-11              1
OMB guidance, for inclusion in the Department-level quarterly reports. Additionally, the
Department publishes its quarterly high-dollar reports on OCFO’s website, which is available to
the public at http://www.ocfo.usda.gov/qhd_reporting.html.

Objectives

The Executive Order requires OIG to review the agency’s quarterly high-dollar overpayments
reports. The objectives of our audit were to assess the level of risk associated with the applicable
programs, determine the extent of oversight warranted, and provide the Secretary of Agriculture
with recommendations, if any, for modifying USDA’s recovery and corrective action plans.




2    AUDIT REPORT 50024-0006-11
Section 1: Compliance with High-Dollar Overpayments Reporting 
Requirements 
Finding 1: USDA Needs to Take Further Actions to Improve the Accuracy, Completeness,
and Timeliness of High–Dollar Overpayments

Although USDA reported more comprehensive information about high-dollar overpayments than
it did in the last 3 years of reporting, officials need to take further actions to improve the
reporting process and the timely submissions of quarterly high-dollar overpayments reports. We
found that USDA’s fiscal year 2013 quarterly reports on high-dollar overpayments and related
actions did not always provide accurate, complete, and timely information. The reports included
errors, had inadvertent omissions, and were published up to 222 days after the due date. In
addition, we found some inconsistencies between the quarterly reports and supporting
documentation. This occurred because of challenges with budget constraints and resource
limitations that impacted reporting of high-dollar overpayments. Also, component agencies
reported inaccurate information or did not perform adequate reviews before submitting data to
OCFO. Without accurate, complete, and timely reporting, neither the Department nor OMB can
measure the effectiveness of USDA component agencies’ actions or strategies to reduce the
errors causing high-dollar overpayments.

OMB guidance for implementing the Executive Order requires that quarterly high-dollar
overpayments reports:

    ·   list all high-dollar overpayments identified by the agency during the quarter;
    ·   list the program responsible for each high-dollar payment error, as well as the recipient
        type (individual or entity) and recipient’s location (City/County, State);
    ·   describe overall agency actions and strategies to recover and prevent overpayments;5 and
    ·   be submitted to OIG within 30 days after the end of each fiscal quarter.6

In addition, OCFO issued internal guidance to further assist USDA’s component agencies
required to report high-dollar overpayments with implementing OMB’s guidance, including a
certification of accuracy from each component agency’s chief financial officer.

Our review found that component agencies provided OCFO with inaccurate information related
to high-dollar overpayments; and as a result, USDA published inaccurate information for six
component agencies—FSA, CCC, FS, Rural Development, RMA, and NRCS. Also, three of
these six agencies submitted inaccurate recovery and corrective actions.7 Additionally, OCFO
omitted high-dollar overpayments for three of these six agencies.8 Finally, six of the seven
component agencies continued to struggle with report timeliness. The following sections provide
further details.
5
  OMB Circular A-123, Appendix C, Part III, Requirements for Implementing Executive Order 13520: Reducing
Improper Payments, M-10-13 (March 22, 2010).
6
  Council of the Inspectors General on Integrity and Efficiency Activities related to Executive Order 13520 on
Reducing Improper Payments (June 17, 2010).
7
  The three agencies that submitted inaccurate recovery and corrective actions were FSA, CCC, and RMA.
8
  OCFO omitted high-dollar overpayments for FS, Rural Development, and RMA.


                                                                        AUDIT REPORT 50024-0006-11               3
        USDA Reported Inaccurate Information about High-Dollar Overpayments

        OCFO’s review process reduced the amount of inaccurate information published by
        USDA. However, OCFO cannot always identify and prevent reporting errors that occur
        at the component agencies’ level. USDA published inaccurate information related to
        high-dollar overpayments because six component agencies (FSA, CCC, FS, Rural
        Development, RMA, and NRCS) did not always calculate overpayments correctly or
        perform adequate reviews prior to submitting its report to OCFO.

        For instance, our review disclosed three instances where FSA and CCC reported
        inaccurate overpayments to OCFO for inclusion in the Department’s report.9 Two of
        these erroneous overpayments occurred because FSA’s county office personnel entered
        inaccurate amounts on FSA’s and CCC’s internal high-dollar overpayments reports.10
        The remaining instance occurred because FSA personnel did not report the cumulative
        total for an overpayment. Because FSA and CCC did not adequately review supporting
        documentation before submitting their certified reports to OCFO, the Department’s
        cumulative high-dollar report included these erroneous overpayments. FSA officials
        stated that the Deputy Administrator Farm Programs (DAFP) and Office of Budget and
        Finance (OBF) staff will maintain direct communication with field office staff to ensure
        that the correct and proper documentation is either provided with the initial high-dollar
        report or is later made available after being reviewed by the DAFP or OBF staff.

        We also noted issues related to FS’ reported high-dollar overpayments.11 For example,
        FS reported to OCFO an overpayment for inclusion in the Department’s report that
        should not have been reported because it did not meet the high-dollar reporting criteria.
        Although the overpayment was reported by USDA, FS management determined during
        our review that the payment was a routine business practice and was not considered an
        overpayment. In addition, we identified one overpayment by FS that was overstated by
        $1,144. This occurred because FS miscalculated the overpayment amount. To prevent
        the noted issues from reoccurring, FS stated that it will conduct a second review of the
        high-dollar overpayments reports by a higher level FS official prior to providing FS
        submissions to OCFO, and provide additional training to processors to check the entire
        invoice.

        Miscalculations also occurred at Rural Development. In five instances, we found that
        Rural Development miscalculated the total amount paid.12 Rural Development
        discovered these errors when it provided supporting documentation for our samples.
        These errors occurred because Rural Development manually calculated the rental
        assistance paid to the tenant incorrectly, and had not implemented a second party review

9
  We selected and reviewed a statistical sample of 60 of FSA’s and CCC’s 289 total reported high-dollar
overpayments.
10
   CCC has no actual employees; however, it carries out its programs through the personnel and facilities of FSA
and several other agencies.
11
   We reviewed all 11 of FS’ reported high-dollar overpayments.
12
   We reviewed a non-statistical sample of 13 of Rural Development’s 46 total reported high-dollar overpayments.


4     AUDIT REPORT 50024-0006-11
        to identify these types of errors. Rural Development stated that, in the first quarter of
        fiscal year 2014, the Deputy Chief Financial Officer staff started conducting second party
        reviews on the quarterly high-dollar overpayments reports.

        Additionally, we determined that RMA provided OCFO with inconsistent information
        related to the cause for one of its overpayments.13 Specifically, RMA reported that “the
        company was not in compliance with FCIC policy or procedures in computing the
        premium”; however, the supporting documentation referred to in computing the premium
        and indemnity was the reason for the overpayment. Also, we found that one
        overpayment dollar amount was transposed by RMA prior to submitting it to OCFO, and
        this caused OCFO to miscalculate and misreport this overpayment on the Department’s
        report. Furthermore, although OCFO guidance requires component agencies’ chief
        financial officers to certify that their quarterly high-dollar reports are accurate and meet
        reporting criteria, RMA did not include certification statements in its fiscal year 2013
        submissions to OCFO.14 To reduce the risk of similar errors, RMA should adequately
        review information in its high-dollar overpayments reports submitted to OCFO.

        Finally, our review of NRCS’ supporting documents disclosed that NRCS did not always
        apply OCFO’s high-dollar overpayment reporting guidance correctly.15 For example,
        NRCS did not combine two overpayments (of $61,296 and $2,145) made to the same
        entity as cumulative payments of $63,441. We also identified three instances where
        NRCS submitted overpayments to OCFO that did not meet the threshold for a reportable
        overpayment. In one instance, NRCS reported an overpayment of 50 percent less than
        the correct amount for one individual. In the two other instances, NRCS reported
        overpayments of less than $25,000 for two entities. Ultimately, OCFO’s review process
        discovered these instances and excluded those overpayments on the Department’s report.
        In addition, we noted two instances in which NRCS did not include all pertinent
        information required in the report, such as city information. These issues occurred
        because of inadequate reviews of supporting documentation related to high-dollar
        overpayments and limited resources to address improper payment reporting.

        Three Agencies Submitted Inaccurate Recovery and Corrective Actions

        Providing a description of an agency’s recovery and corrective actions in its high-dollar
        overpayments reports is a specific requirement of the Executive Order, and provides
        important details about the agency’s plans to prevent future overpayments. Our review
        disclosed that FSA, CCC, and RMA sometimes submitted inaccurate information on
        recoveries and preventive actions to OCFO for inclusion in the Department’s quarterly
        reports on high-dollar overpayments. For example, FSA and CCC reported recovery
        actions that did not agree with supporting documentation for three overpayments. While
        the fiscal year 2013 overpayments reports documented that recovery action was ongoing
        for FSA’s and CCC’s three overpayments, supporting documentation showed the
        overpayments were recovered in fiscal year 2012. Also, RMA’s overall recovery actions

13
   We reviewed a non-statistical sample of 25 of RMA’s 143 total reported high-dollar overpayments.
14
   OCFO Quarterly High-Dollar Overpayments Report Guidance Version 2.1 (June 2013).
15
   We selected and reviewed a statistical sample of 35 of NRCS’ 80 total reported high-dollar overpayments.


                                                                        AUDIT REPORT 50024-0006-11            5
        were partially inconsistent with the supporting documentation. For example, RMA
        reported “Account receivables were established for the overpayment and recovery actions
        initiated. Most receivables have been recovered.” However, we found that RMA did not
        establish receivables for these overpayments. Instead, RMA recaptures its overpayments
        through offsets to future payments to these entities. These instances of inaccurate
        recovery and corrective action information occurred because FSA, CCC, and RMA
        overlooked or provided inaccurate preventive and recovery action plans.

        OCFO Omitted High-Dollar Overpayments for Three Agencies

        Our review disclosed that the Department’s quarterly high-dollar reports for fiscal year
        2013 excluded some reportable overpayments for FS, Rural Development, and RMA.
        For example, we noted OCFO omitted one overpayment, totaling $182,819 from FS’ first
        quarter high-dollar overpayment report. Communications initially occurred between
        OCFO and FS related to the overpayment calculation; however, followup did not occur.
        In addition, OCFO omitted 9 Rural Development high-dollar overpayments totaling
        $118,363 and 15 RMA overpayments totaling $1,366,202 from the Department’s first
        quarter report for fiscal year 2013. This occurred because OCFO staff inadvertently
        overlooked and omitted these overpayments. OCFO was made aware of Rural
        Development’s and RMA’s omitted overpayments and rectified it by including these
        overpayments in the fiscal year 2014 second quarter report.

        USDA Continued to Struggle with Timeliness of Reports

        As reported since 2010, USDA did not submit its quarterly high-dollar overpayments
        reports timely. The Department is required to submit its quarterly reports to OIG no later
        than 30 days after the end of the quarter; however, we received the reports anywhere
        from 56 to 222 days after the due dates. Specifically, we received USDA’s high-dollar
        overpayments reports 222 days late for the first quarter, 126 days late for the second
        quarter, 56 days late for the third, and 65 days late for the fourth. This occurred because
        6 of the 7 component agencies submitted reports to OCFO by as much as 116 days late.16
        In addition, delays in the Department’s approval process for quarterly high-dollar reports
        caused untimely reporting.

        We discussed report timeliness with component agencies and OCFO, which generally
        stated that reports were late due to budget constraints and limited resources. OCFO also
        emphasized that the signature approval and clearance process is cumbersome, which
        therefore causes the Department to submit late every quarter. We stress that untimely
        reporting may not fully reflect USDA’s intensified efforts to eliminate the highest
        improper payments in its programs through increased accountability and transparency
        over high-dollar overpayments.

Overall, we attributed USDA’s inaccurate, incomplete, and untimely reporting to issues related
to the challenges with budget constraints and resource limitations that impacted reporting of

16
 The six component agencies that submitted their high-dollar overpayments reports late were FNS, FSA, CCC,
Rural Development, RMA, and NRCS.


6     AUDIT REPORT 50024-0006-11
high-dollar overpayments. OCFO stated that it provides reminders in the form of the Improper
Payments Information Act of 2002 (IPIA) deliverable schedule, which is updated throughout the
fiscal year and in turn is shared with the IPIA workgroup. Also, OCFO stated that its staff
aggressively pursued late submissions and they would escalate the issue when needed.
Therefore, we are not making a recommendation on the timeliness of reporting. To improve
accuracy of reporting, RMA and NRCS should implement second party reviews within their
agencies to ensure the information reported on the high-dollar overpayments reports is accurately
reported and traced to supporting documentation. FSA, CCC, FS, and Rural Development have
begun second party reviews; therefore, we are not making recommendations on the accuracy of
reporting to these agencies. To improve the completeness of reporting, OCFO should develop a
second party quality review process in conjunction with the agencies to ensure identified
overpayments are included in the Department’s high-dollar overpayments reports.

Recommendation 1 to RMA
Implement a second party quality review process to ensure RMA’s high-dollar overpayments
information is accurately reported and traced to supporting documentation.

RMA Response
In its July 29, 2014 response, RMA stated:

       RMA concurs with Recommendation 1 in the draft report. RMA will develop procedures
       within the next six months to implement a second party quality review to ensure RMA’s
       high dollar overpayments information is accurately reported and traced to supporting
       documentation.


OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, please provide a detailed description of the procedures that will be performed to
conduct the second party quality review to ensure RMA’s high-dollar overpayments information
is accurately reported and traced to supporting documentation.


Recommendation 2 to NRCS
Implement a second party quality review process to ensure NRCS’ high-dollar overpayments
information is accurately reported and traced to supporting documentation.




                                                             AUDIT REPORT 50024-0006-11        7
NRCS Response
In its August 11, 2014 response, NRCS stated:

       NRCS concurs with the finding and recommended actions. NRCS will institute a
       secondary review of the high dollar improper payment report information before
       submitting the report to the Department. The NRCS developed checklist will include all
       secondary review steps, and will serve to document the review process. The checklist
       will include signature blocks for the checklist preparer, and for the checklist review to be
       completed by the Division Director.

NRCS plans to complete all actions by April 30, 2015.


OIG Position
We accept NRCS’ management decision.


Recommendation 3 to OCFO
Develop a second party quality review process in conjunction with the agencies to ensure
overpayments identified are included in the Department-level high-dollar overpayments reports.

OCFO Response
In its July 31, 2014 response, OCFO stated:

       OCFO agrees with the recommendation and is implementing the following actions: The
       primary staff member preparing the High-Dollar Overpayment Report will prepare a
       change log of all narrative and calculation changes done in preparing the Departmental
       report. A second party review will be performed that confirms all required agencies
       submit reports, then compares the report to the agency submissions and confirms that all
       differences are fully addressed in the change log. Finally, the change log will be
       provided to agency staff once the report is put into Departmental clearance.

OCFO plans to complete all actions by August 30, 2014.

OIG Position
We accept OCFO’s management decision.




8    AUDIT REPORT 50024-0006-11
Scope & Methodology 
Our review was for the limited purpose described in the objectives and would not necessarily
identify all deficiencies in internal controls for determining high-dollar overpayments. We
performed fieldwork for this review between February 2014 and June 2014. To accomplish our
objective, we performed the following procedures.

     ·   Reviewed USDA’s fiscal year 2013 quarterly reports on high-dollar overpayments.
     ·   Conducted teleconferences with OCFO officials at Headquarters in Washington, D.C.
     ·   Interviewed and held meetings with officials from the component agencies that were
         responsible for administering and reporting the high-dollar overpayments from the 16
         high-risk programs.
     ·   Selected non-statistical high-dollar overpayments samples for FS, Rural Development,
         and RMA.17 Additionally, we selected statistical samples for FSA, CCC, and NRCS.18
         Our samples were selected from the Department’s quarterly high-dollar overpayments
         reports. FNS submitted statements certifying that it did not identify any high-dollar
         overpayments meeting the criteria outlined in the Quarterly High-Dollar Overpayments
         Report Guidance.
     ·   Evaluated the supporting documentation provided by the component agencies for the
         samples selected.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




17
   We reviewed all 11 of FS’ reported high-dollar overpayments. For Rural Development and RMA, we selected
and reviewed the largest amounts of reported high-dollar overpayments.
18
   We selected and reviewed statistical samples for component agencies FSA, CCC, and NRCS. See Exhibit C.


                                                                     AUDIT REPORT 50024-0006-11              9
Abbreviations
CCC                   Commodity Credit Corporation

DAFP                  Deputy Administrator Farm Programs

Executive Order       Executive Order 13520

FSA                   Farm Service Agency

FNS                   Food and Nutrition Service

FS                    Forest Service

IPIA                  Improper Payments Information Act of 2002

NRCS                  Natural Resources Conservation Service

OBF                   Office of Budget and Finance

OCFO                  Office of the Chief Financial Officer

OIG                   Office of Inspector General

OMB                   Office of Management and Budget

RMA                   Risk Management Agency

USDA                  United States Department of Agriculture




10     AUDIT REPORT 50024-0006-11
     Exhibit A:  USDA’s 16 Programs Susceptible to Significant 
     Improper Payments  
     Exhibit A provides a list of USDA’s 16 current high-risk programs or program categories

                                      High-Risk Program                                               USDA Component
                                                                                                          Agency
1.    Supplemental Nutrition Assistance Program (SNAP)
      SNAP provides low income families benefits to purchase food from approved retailers.
2.   National School Lunch Program (NSLP)
     NSLP provides cash subsidies and donated foods from USDA for each meal schools serve.
3.    School Breakfast Program (SBP)
      SBP is a federally assisted meal program where participating school districts receive cash       Food and Nutrition
      subsidies for each meal they serve.
                                                                                                         Service (FNS)
4.    Child and Adult Care Food Program (CACFP)
      Provides nutritious meals to participants in day care facilities, such as child care centers,
      day care homes, and adult day care centers.
5.    Special Supplemental Nutrition Program for Women, Infants, and Children (WIC)
      WIC provides supplemental foods and other health services to low-income participating
      women; and children up to the age of 5 years.
6.    Federal Crop Insurance Corporation (FCIC) Program Fund                                           Risk Management
      FCIC provides insurance and risk management strategies to American producers.                     Agency (RMA)
7.    Milk Income Loss Contract Program (MILC)
      MILC compensates dairy producers when domestic milk prices fall below a specified level.
8.    Marketing Assistance Loan Program (MAL)
      MAL provides an influx of cash when market prices are low, which allows the producer to
      delay the sale of the commodity until more favorable market conditions emerge.
9.    Direct and Counter-Cyclical Payments (DCP)                                                        Farm Service
      DCP provides payments based on yields or market prices to eligible producers on farms.
                                                                                                      Agency (FSA) and
10. Conservation Reserve Program (CRP)
    CRP is a voluntary program available to agricultural producers to help them use
                                                                                                      Commodity Credit
    environmentally sensitive land for conservation benefits.                                         Corporation (CCC)
11. Noninsured Assistance Program (NAP)
    NAP provides financial assistance to producers of noninsurable crops when low yields, loss
    of inventory, or prevented planting occur due to a natural disaster.
12. Loan Deficiency Payments (LDP)
    LP is available to eligible participants who do not want to participate in the MAL program.
13. Miscellaneous Disaster Programs (MDP)
      MDP provides assistance through various programs to participants when there are disasters.
                                                                                                             FSA
14. Rental Assistance Program (RAP)
    RAP provides an additional source of support for households with incomes too low to pay           Rural Development
    the basic rent from their own resources.
15. Farm Security and Rural Investment Act Programs (FSRI)                                             Natural Resources
    FSRI programs provide products and services that enable people to be good stewards of the         Conservation Service
    Nation’s soil, water, and related natural resources on non-Federal lands.
                                                                                                           (NRCS)
16. Wildland Fire Suppression Management (WFSM)
    WFSM protects life, property, and natural resources on acres of National Forest System and        Forest Service (FS)
    State and private lands through fee or reciprocal protection agreements.




                                                                                AUDIT REPORT 50024-0006-11          11
Exhibit B:  Summary of USDA’s Reported Fiscal Year 2013 High 
Dollar Overpayments 

Exhibit B lists the number and sum of high-dollar overpayments reported in fiscal year
2013, by component agency and high-risk program.

                                                                             Number of               Sum of
                                                                              Reported              Reported
     USDA Agency                    High-Risk Program(s)
                                                                             High-Dollar           High-Dollar
                                                                            Overpayments          Overpayments
1. Forest Service          Wildland Fire Suppression
                                                                                    11                  $1,263,027
                           Management Program
2.   FSA and CCC           Conservation Reserve Program                             26                    $397,411
3.   FSA and CCC           Direct and Counter Cyclical Program                     163                  $4,209,746
4.   FSA and CCC           Loan Deficiency Program                                   2                    $365,800
5.   FSA and CCC           Marketing Assistance Loan Program                         7                    $656,392
6.   FSA and CCC           Milk Income Loss Contract Program                         5                     $41,601
7.   FSA                   Miscellaneous Disaster Programs                          78                  $2,070,464
8.   FSA and CCC           Noninsured Assistance Program                             8                     $75,062
9.   FNS19                 Five total programs, including:
                           · Child and Adult Care Food
                              Program;
                           · National School Lunch Program;
                           · School Breakfast Program;                              0                               $0
                           · Special Supplement Nutrition
                              Program for Women, Infants, and
                              Children; and
                           · Supplemental Nutrition
                              Assistance Program
10. NRCS                   Farm Security and Rural Investment
                                                                                    80                $19,109,161
                           Programs
11. RMA                    Federal Crop Insurance Corporation
                                                                                   143                $18,578,442
                           Program Fund
12. Rural                  Rental Assistance Program
                                                                                    46                    $350,850
    Development
TOTAL                                                                              569                $47,117,956




19
   FNS submitted statements certifying that it did not identify any high-dollar overpayments meeting the criteria
outlined in the Quarterly High-Dollar Overpayments Report Guidance, and was therefore providing a negative
report.


12      AUDIT REPORT 50024-0006-11
Exhibit C:  Statistical Plan  
Sampling Methodology for Audit Number 50024-0006-11  
Executive Order 13520, Reducing Improper Payments,  
Fiscal Year 2013 High-Dollar Overpayments Report Review 
     Objective

     This sample is designed to help support OIG Audit 50024-0006-11. The audit objective is to
     review information from USDA’s fiscal year 2013 quarterly reports on high-dollar
     overpayments made by programs susceptible to significant improper payments. To be
     reportable as a high-dollar overpayment, an overpayment is identified as being made for at
     least 50 percent more than the correct amount, and as exceeding a certain threshold.
     Statistical samples were needed for the overpayments of three agencies—FSA, CCC, and
     NRCS—due to the volume of overpayments reported for various reasons.20

     Audit Universe

     Our universe for FSA, CCC, and NRCS were obtained from the OCFO website for Quarterly
     High-Dollar Reporting, which consisted of 289 FSA and CCC overpayments that totaled
     $7,816,476 and 80 NRCS overpayments that totaled $19,109,161 for fiscal year 2013 high-
     dollar overpayments.

     Sample Design

     Previous years’ audit on this subject were not based on probability samples, but rather, on
     judgmental overpayments selected by our auditors. Because of this, we do not have unbiased
     information about the expected error rate. Nevertheless, we used previous years’ findings as a
     gauge for our statistical sampling.

     A major consideration when selecting our samples is the time and resources of our auditors
     and available budget. Our samples typically represent the least amount of work necessary to
     report to our internal standards. That is to say that we would not assume a 50 percent error
     rate (most conservative assumption that leads to highest sample size) if we have any
     information at all about what error rate we could expect to find. Additionally, we would
     select simple random samples if appropriate to meet the objectives of audits whenever
     possible. This helps us keep the number of sampled units down.

     We selected a simple random sample of 60 high-dollar overpayments for our FSA and CCC review
     and 35 high-dollar overpayments for our NRCS review.

     Our sample sizes are based on the following factors:



20
  RMA was not selected for statistical sampling because RMA reported similar reasons for overpayments, as well
as, the same corrective and preventative actions for all 143 reported high-dollar overpayments.


                                                                     AUDIT REPORT 50024-0006-11             13
Exhibit C (continued):  Statistical Plan  
Sampling Methodology for Audit Number 50024-0006-11  
Executive Order 13520, Reducing Improper Payments, 
Fiscal Year 2013 High-Dollar Overpayments Report Review 
FSA and CCC sample
     · Audit Universe—consisted of 289 high-dollar overpayments.
     · Expected Error Rate—because we do not have unbiased information about an expected
        error rate, we assumed a rate between 20 to 30 percent.
     · Precision—we wanted to be able to report our estimate with a +/-10 percent precision
        in an attribute testing scenario.
     · Confidence Level—we are using a 95 percent confidence level for the reporting our
        estimates.

NRCS sample
    · Audit Universe—consisted of 80 high-dollar overpayments.
    · Expected Error Rate—because we do not have unbiased information about an expected
       error rate, we assumed a rate about 20 percent.
    · Precision—we wanted to be able to report our estimate with a +/-10 percent precision
       in an attribute testing scenario.
    · Confidence Level—we are using a 95 percent confidence level for the reporting our
       estimates.

  Results

  To support the audit objectives, we reviewed the quarterly reports and the supporting
  documentation provided for the samples selected. We noted 1 exception within the 35
  samples selected for NRCS and 6 exceptions within the 60 samples selected for FSA and
  CCC. However, the samples obtained for these three agencies were selected statistically due
  to limited time constraints on the review that was to be performed by the auditors assigned and
  therefore we did not run statistical projections as they are not required for the report.




14    AUDIT REPORT 50024-0006-11
Exhibit D: Agency’s Response 




                                USDA’S 
                RISK MANAGEMENT AGENCY, 
   NATURAL RESOURCES CONSERVATION SERVICE, and 
         OFFICE OF THE CHIEF FINANCIAL OFFICER 
                RESPONSES TO AUDIT REPORT 




                                          AUDIT REPORT 50024-0006-11   15
                               United States Department of Agriculture

                                 Farm and Foreign Agricultural Services
                                       Risk Management Agency



TO:           Gil H. Harden                                                July 29, 2014
              Assistant Inspector General for Audit
              Office of Inspector General

FROM:         Kent Lanclos /s/ for Jared K. Burnett
              Acting Audit Liaison Official


SUBJECT:      Office of Inspector General Audit 50024-0006-11, Official Draft Report,
              Executive Order 13520, Reducing Improper Payments, Fiscal Year 2013 High
              Dollar Overpayments Report Review

Outlined below is the Risk Management Agency’s (RMA) response to the subject report.

RECOMMENDATION NO. 1:

Implement second party quality review process to ensure RMA’s High-Dollar overpayments
information is accurately reported and traced to supporting documentation.

RMA Response:

RMA concurs with Recommendation 1 in the draft report. RMA will develop procedures within
the next six months to implement a second party quality review to ensure RMA’s high dollar
overpayments information is accurately reported and traced to supporting documentation.


Should you have any questions or would like additional information concerning this matter,
please contact Nicole Smith Lees at (202) 260-8085.




                               Deputy Administrator for Compliance
                  1400 Independence Ave., SW · STOP 0806 · Washington, DC 20250-0806

                           The Risk Management Agency Administers and Oversees
                    All Programs Authorized Under the Federal Crop Insurance Corporation

                            USDA is an Equal Opportunity Provider and Employer
                                 United States Department of Agriculture


August 11, 2014


SUBJECT:          SPA - Fiscal Year 2013 Executive Order 13520, Eliminating Improper
                  Payments, High Dollar Overpayments Review, Audit # 50024-0006-11


TO:               Gil H. Harden
                  Assistant Inspector General for Audit
                  Office of Inspector General

The Natural Resources Conservation Service’s (NRCS) response to Audit Report # 50024-0006-11,
Fiscal Year 2013 Executive Order 13520, Eliminating Improper Payments, High Dollar Overpayments
Review follows. The response addresses planned actions for audit recommendation 2 directed to
NRCS.

Finding 1

USDA Needs to Take Further Actions to Improve the Accuracy, Completeness, and Timeliness of High–
Dollar Overpayments.

Recommendation 2

Implement a second party quality review process to ensure NRCS’ high dollar overpayments
information is accurately reported and traced to supporting documentation.

Agency Response

NRCS concurs with the finding and recommended actions.

NRCS will institute a secondary review of the high dollar improper payment report information before
submitting the report to the Department. NRCS developed a checklist that will include all secondary
review steps, and will serve to document the review process. The checklist will include signature
blocks for the checklist preparer, and for the checklist review to be completed by the Division Director.

Estimated completion date: April 30, 2015




                                     Natural Resources Conservation Service
                                  Post Office Box 2890, Washington, D.C. 20013
                                   An Equal Opportunity Provider and Employer
Page 2

If you have questions, please contact Leon Brooks, Director, Compliance Division, at (301) 504-2190, or
email at leon.brooks@wdc.udsa.gov.


/s/

Jason A. Weller
Chief

cc:
Thomas W. Christensen, Associate Chief for Operations, NRCS, Washington, D.C.
Stephen Kunze, Chief Financial Officer, NRCS, Washington, D.C.
Ravenna Bohan, Deputy Chief Financial Officer, NRCS, Washington, D.C.
Paula Bohnwagner, Director, Quality Assurance Division, NRCS, Washington, D.C.
Leon Brooks, Director, Compliance Division, NRCS, Washington, D.C.
United States
Department of
Agriculture

Office of the Chief
Financial Officer

1400 Independence
                      July 31, 2014
Avenue, SW

Washington, D.C.
20250                 TO:             Tracy A. LaPoint
                                      Deputy Assistant Inspector General

                      FROM:           Jon M. Holladay              -s- Jon M. Holladay
                                      Deputy Chief Financial Officer

                      SUBJECT:        Management Response to Executive Order 13520, Reducing Improper
                                      Payments, Fiscal Year 2013 High-Dollar Overpayment Report Review, Audit
                                      No. 50024-0006-11



                      This responds to your request for management’s response to Recommendation No. 3 for Audit
                      Report No. 50024-0006-11.

                      If you have any questions or need additional information, please contact our office at
                      (202) 720-5539 or have a member of your staff contact Kathy Donaldson at
                      (202) 720-1893.

                      Attachment




                                                  An Equal Opportunity Provider and Employer
    Executive Order 13520, Reducing Improper Payments, Fiscal Year 2013 High-Dollar
                 Overpayment Report Review, Audit No. 50024-0006-11


Recommendation 3

Develop a second party quality review process in conjunction with the agencies to ensure overpayments
identified are included in the Department-level high-dollar overpayments reports.

Management Response: OCFO agrees with the recommendation and is implementing the
following actions: The primary staff member preparing the High-Dollar Overpayment Report will
prepare a change log of all narrative and calculation changes done in preparing the Departmental
report. A second party review will be performed that confirms all required agencies submit reports,
then compares the report to the agency submissions and confirms that all differences are fully
addressed in the change log. Finally, the change log will be provided to agency staff once the
report is put into Departmental clearance.

Date Corrective Action will be Completed: August 30, 2014

Responsible Organization: FPD, OCFO




                                      An Equal Opportunity Provider and Employer
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
